Report No. D-2009-052          February 13, 2009




Controls Over Excess Defense Articles Provided to
              Foreign Governments
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DLA                   Defense Logistics Agency
DRMO                  Defense Reutilization and Marketing Office
DRMS                  Defense Reutilization and Marketing Service
DSCA                  Defense Security Cooperation Agency
DTR                   Defense Transportation Regulation
LOA                   Letter of Offer and Acceptance
MILDEP                Military Department
TCN                   Transportation Control Number
               Department of Defense Office of Inspector General
Report No. D-2009-052                                                  February 13, 2009
   (Project No. D2006-D000LG-0136.000)

             Controls Over Excess Defense Articles Provided to
                          Foreign Governments

                                 Executive Summary

Who Should Read This Report and Why? Individuals responsible for reporting and
transferring excess defense articles to foreign governments should read this report
because it discusses controls over approving, accounting for, and shipping such articles.
Background. From October 2001 through March 2006, DoD reported providing excess
defense articles with an acquisition value of $2 billion to 57 foreign governments friendly
to the United States. Excess defense articles are DoD-owned items no longer needed and
declared excess by the U.S. Armed Forces. The articles may require demilitarization
(disassembly or destruction) when no longer needed by foreign governments to prevent
transfers of excess defense articles to governments not friendly to the United States.
The Army and the Defense Logistics Agency provided approximately 99 percent
(2,728,384 of 2,752,057) of the excess defense articles with an acquisition value of
$875 million to 37 foreign governments. Within the Army, we reviewed controls at the
U.S. Army Security Assistance Command and did not detect control weaknesses.
However, we did find weaknesses and focused our review on controls at the Defense
Logistics Agency’s Defense Reutilization and Marketing Service, which provided excess
defense articles with an acquisition value of more than $296 million to 19 foreign
governments from October 2001 through March 2006. Also, we reviewed transportation
offices managed by the Navy, Air Force, and Defense Logistics Agency that helped ship
the excess defense articles from the Defense Reutilization and Marketing Service offices.
Results. The Defense Reutilization and Marketing Service and the DoD transportation
offices reviewed did not fully account for the 7,373 line items of excess defense articles
requiring demilitarization that were provided to the 19 foreign governments. A line item
is a single-line entry on a reporting form or sales document that indicates a quantity of
property having the same description, physical condition, and cost per item. On the basis
of our statistical sample of 175 of 7,373 line items, we estimate:
  as many as 7,259 of 7,373 line items of excess defense articles, including M-16
   rifles, M-60 machine guns, and armored personnel carriers, were not properly
   tracked, safeguarded, accounted for, or reconciled;
  as many as 291 of 7,373 line items of excess defense articles, including M-16 rifle
   parts, were shipped to foreign governments not authorized to have those items; and
  as many as 960 of 7,373 line items of excess defense articles shipped were turned in
   with incorrect information on how the articles should be demilitarized to prevent
   potential misuse.
As a result of deficiencies in controls over excess defense articles, the Defense
Reutilization and Marketing Service and the DoD transportation offices increased the risk
of providing foreign governments unauthorized property that could be used to threaten
our national security.
We recommend that the U.S. Transportation Command revise the regulation that DoD
transportation offices follow to require them to identify, track, and control each line item
within a shipment. We recommend that the Deputy Chief of Staff for Logistics,
Installations & Mission Support, Department of the Air Force; the Commander, Naval
Supply Systems Command; and the Director, Defense Logistics Agency direct the DoD
transportation offices to conduct periodic reviews of transportation documents to control
the transport of small arms, and conduct periodic reviews of shipping documents to better
account for excess defense articles shipped to foreign governments.
We recommend that the Defense Reutilization and Marketing Service: (1) specify which
guidance to use for retaining documents for articles turned in to its offices; (2) develop
policy to account for small arms; (3) determine whether small arms for which there is an
inventory discrepancy are missing; (4) establish a procedure to prevent managers from
authorizing shipments of excess defense articles not approved by the Defense Security
Cooperation Agency; and (5) establish a process to notify foreign governments when the
method of demilitarization changes for excess defense articles. See Finding section for
detailed recommendations and Appendix B for statistical methodology.
Management Comments and Audit Response. We issued a draft of this report on
March 14, 2008. The Chief of Staff [who is also the Director of Policy] for the Deputy
Assistant Secretary of the Navy for Acquisition and Logistics Management responded for
the Commander, Naval Supply Systems Command. He concurred, stating that the Navy
will reiterate the requirement for two drivers’ signatures on transportation documents,
and that the Navy will reiterate requirements for retaining shipping documents.
The Air Force Assistant Deputy Chief of Staff for Logistics, Installations & Mission
Support responded for the Deputy Chief of Staff for Logistics, Installations & Mission
Support. He concurred, stating that the Air Force plans to update an Air Force
instruction in July 2009 directing certification of two drivers’ signatures on all
transportation documents for small arms, and retention of all shipping documents for
10 years.
The Director of Program Analysis and Financial Management responded for the
Commander of U.S. Transportation Command. He stated that the U.S. Transportation
Command had no formal changes to make to the report. Regarding the recommendation,
the Director did not concur or nonconcur but the U.S. Transportation Command updated
the Defense Transportation Regulation, part II, chapter 203 in July 2008 requiring
transportation offices to identify, track, and control all transportation control numbers
linked to the lead transportation control number.
The Defense Logistics Agency Executive Director for Materiel Policy, Process and
Assessment responded for the Director of the Defense Logistics Agency and
nonconcurred with only one of seven recommendations directed to the Defense Logistics
Agency. She stated that the Defense Logistics Agency: (1) issued supplemental policy
on April 22, 2008, based on the draft transportation regulation to be issued February
2009, requiring periodic reviews for two drivers’ signatures on small arms transportation
documents; (2) reiterated to its depots on September 6, 2006, the guidance to follow for
retaining transportation documents; (3) issued clarifying guidance on May 27, 2008 for
retaining turn-in documents; (4) implemented a system change that automatically updates
its information system when small arms are recorded in the small arms system; (5)
accounted for all small arms inventory identified at Crane, Indiana; (6) is reviewing case
files quarterly to ensure that only approved items are authorized for shipment; and (7)
concurred with the intent but not the recommendation to notify foreign countries of the
current demilitarization codes for item disposal.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.


                                             ii
The management comments from the Executive Director for Materiel Policy, Process and
Assessment on five of the seven recommendations addressed to the Defense Logistics
Agency were not responsive. The Executive Director’s comments did not address our
recommendations on: (2) policy requiring periodic reviews of bills of lading and other
shipping documents for compliance with document retention requirements; (4) policy
directing comparison of the number of small arms recorded in the Defense Logistics
Agency’s information and small arms systems with the small arms actually turned in; (5)
a determination whether small arms are missing; (6) a document specifying the process
for reviewing case managers’ decisions to authorize shipments of excess defense articles;
or (7) a document specifying the process for notifying foreign governments when the
demilitarization codes for excess defense articles provided to them change.
We request that the Executive Director for Materiel Policy, Process and Assessment
reconsider her position and provide comments on the final report by March 13, 2009.




                                           iii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Review of Internal Controls                                              3

Finding
     Controls Over the Transfer of Excess Defense Articles to Foreign
       Governments                                                       5

Appendixes
     A. Scope and Methodology                                           21
           Prior Coverage                                               23
     B. Statistical Methodology                                         25
     C. Excess Defense Articles Provided to Foreign Governments         26
     D. Excess Defense Articles Process                                 28

Management Comments
     Department of the Navy                                             29
     Department of the Air Force                                        32
     U.S. Transportation Command                                        33
     Defense Logistics Agency                                           35
Background
           DoD is authorized by law to transfer excess defense articles to foreign
           governments under the Foreign Assistance Act of 1961 (Public Law 87-195), as
           amended, and the Arms Export Control Act of 1976 (Public Law 90-629), as
           amended. Excess defense articles are DoD-owned items no longer needed and
           declared excess by the U.S. Armed Forces. According to the Foreign Assistance
           Act, defense articles are provided to foreign governments for:

                      promoting their internal security (including antiterrorism),

                      helping to provide legitimate self-defense,

                      permitting the government’s participation in regional or joint
                       arrangements consistent with the charter of the United Nations,

                      assisting the United Nations with maintaining or restoring international
                       peace and security, and

                      assisting military forces with constructing public works and helping the
                       economic and social development of the governments.

           The Foreign Assistance Act and the Arms Export Control Act also address
           methods DoD can use to provide foreign governments excess defense articles.

           Authorized Methods for Transferring Excess Defense Articles. The Foreign
           Assistance Act of 1961, as amended, authorizes DoD to grant excess defense
           articles to foreign governments. Also, excess defense articles may be sold to
           foreign governments through the Foreign Military Sales program,1 authorized by
           the Arms Export Control Act. These excess defense articles can be offered at
           reduced or no cost to eligible foreign governments on an “as is, where is” basis.

           Various Components are involved in controlling the transfer of excess defense
           articles to foreign governments.

           DoD Components That Control the Transfer of Excess Defense Articles. It is
           DoD policy that its Components implement controls to prevent unauthorized
           transfers of excess defense articles to governments adverse to the United States.
           Various DoD Components play a role in controlling the transfer of excess defense
           articles to foreign governments and preventing unauthorized transfers. These
           Components include the Defense Logistics Agency (DLA) and its Defense
           Reutilization and Marketing Service (DRMS), as well as the Defense Security
           Cooperation Agency (DSCA).

                  Defense Logistics Agency. DLA is responsible for ensuring that all
           materiel it ships to Foreign Military Sales customers follows Foreign Military
           Sales program procedures. Materiels such as excess defense articles may be sold

1
    The Foreign Military Sales program is the means for selling U.S. defense equipment, services, and
    training to foreign governments.

                                                      1
           to foreign governments through the Foreign Military Sales program. DRMS, a
           Component of DLA, maintains inventory of excess defense articles received from
           the Military Services that are available to eligible foreign governments.
           Managers at DRMS establish a case file2 when a foreign country authorized to
           receive excess defense articles requests them; these managers, known as case
           managers,3 then send a Letter of Offer and Acceptance (LOA)4 to DSCA for
           review, approval, and signature.

                   Defense Security Cooperation Agency. DSCA directs, administers, and
           provides overall policy guidance for security cooperation in accordance with the
           Foreign Assistance Act of 1961. Security cooperation refers to the activities
           conducted with allies and friendly nations to build relationships that promote U.S.
           interests. Additionally, DSCA helps coordinate excess defense articles provided
           to foreign governments.

           Excess Defense Articles Provided to Foreign Governments. From
           October 2001 through March 2006, DoD reported providing excess defense
           articles with an acquisition value of $2 billion to 57 foreign governments. The
           Army and the Defense Logistics Agency are the two DoD Components that
           provided the largest quantities of excess defense articles to foreign governments
           from October 2001 through March 2006. The Army and the Defense Logistics
           Agency provided approximately 99 percent (2,728,384 of 2,752,057) of the
           excess defense articles with an acquisition value of $875 million to 37 foreign
           governments during that period.

           Within the Army, we reviewed controls at the U.S. Army Security Assistance
           Command and did not detect control weaknesses. However, we did find
           weaknesses and focused our review on controls at the Defense Logistics Agency’s
           Defense Reutilization and Marketing Service, which provided excess defense
           articles with an acquisition value of more than $296 million to 19 foreign
           governments from October 2001 through March 2006. DRMS reported providing
           7,373 line items5 of excess defense articles requiring demilitarization (comprising
           321,196 articles provided as grants and sales) to 19 foreign governments from
           October 2001 through March 2006. To obtain excess defense articles, foreign
           governments or international organizations6 submit a written request to the U.S.
           Government.



2
    A case is a contractual sales agreement between the United States and an eligible foreign country or
    international organization, documented by a Letter of Offer and Acceptance.
3
    A case manager is an official responsible for all financial and logistical aspects of a case throughout its
    life cycle.
4
    A Letter of Offer and Acceptance is the document used by the U.S. Government to sell defense articles
    and services to a foreign country or international organization under authorities granted in the Arms
    Export Control Act.
5
    A line item is a single-line entry on a reporting form or sales document that indicates a quantity of
    property having the same description, physical condition, and cost per item.
6
    There was only one foreign organization included in our sample; therefore, we use the term foreign
    governments to represent both foreign organizations and foreign governments.

                                                         2
           Process for Requesting Excess Defense Articles. A foreign government sends a
           Letter of Request to the U.S. Government to obtain the price and availability of
           excess defense articles. Once the foreign government receives the requested
           information and determines it wants the articles, it sends a Letter of Request to
           the DoD security assistance office located in the country making the request. The
           security assistance office transmits the Letter of Request to a case manager in
           DRMS who develops a LOA. Next, the case manager sends the LOA to DSCA
           for review and signature. A copy of the LOA is also sent to the Department of
           State, and Congress (if congressional notification is required) for review. See
           Appendix D for a flow chart of the complete DoD process for requesting and
           controlling excess defense articles.


Objectives
           The overall audit objective was to assess the adequacy of controls over the
           transfer of excess defense articles to foreign governments. Specifically, we
           determined whether transferred property was adequately controlled and
           demilitarized7 in accordance with the requirements of the Foreign Assistance Act
           of 1961 (Public Law 87-195), as amended, and the Arms Export Control Act
           of 1976 (Public Law 90-629), as amended. We also reviewed the management
           control program as it related to the overall audit objective. See Appendix A for
           the scope and methodology, and for prior coverage related to the objectives.


Review of Internal Controls
           We reviewed the adequacy of internal controls in place at the U.S. Army Security
           Assistance Command, DoD transportation offices, and DRMS over excess
           defense articles provided to foreign governments from October 2001 through
           March 2006. During our review, we also looked at the Defense Transportation
           Regulation that the U.S. Transportation Command develops and the DoD
           transportation offices use as guidance for transporting excess defense articles.
           We did not detect control weaknesses at the U.S. Army Security Assistance
           Command. However, we determined that the U.S. Transportation Command
           needs to revise the Defense Transportation Regulation to require the DoD
           transportation offices to identify, track, and control each line item they ship. We
           also identified control weaknesses in managing excess defense articles at DoD
           transportation offices and DRMS.



7
    Demilitarization is the process used to render an item useless for military purposes. For excess defense
    articles provided to a foreign government, demilitarization occurs after a foreign government no longer
    needs or wants the excess article, according to a DRMS case manager.




                                                       3
Implementing Recommendations 1., 2., and 3. will improve internal controls over
excess defense articles provided to foreign governments. A copy of this report
will be provided to the senior official responsible for internal controls in the U.S.
Transportation Command, DoD transportation offices, and DRMS.




                                      4
                    Controls Over the Transfer of Excess
                    Defense Articles to Foreign Governments
                    DoD transportation offices8 and DRMS did not have adequate controls to
                    fully account for 7,373 line items of excess defense articles requiring
                    demilitarization that have an acquisition value of more than $296 million
                    and were provided to 19 foreign governments from October 2001 through
                    March 2006. Based on our statistical sample of 175 line items, we
                    estimate that:

                                 as many as 7,259 of the 7,373 line items of excess defense
                                  articles, including M-16 rifles, M-60 machine guns, and
                                  armored personnel carriers, were not properly tracked,
                                  safeguarded, accounted for, or reconciled;

                                 as many as 291 of the 7,373 line items of excess defense
                                  articles, including M-16 rifle parts, were shipped to a foreign
                                  government not authorized to have those items; and

                                 as many as 960 of the 7,373 line items of excess defense
                                  articles shipped were turned in as excess with incorrect
                                  information on how the articles should be demilitarized to
                                  prevent potential misuse.

                    DoD transportation offices and DRMS did not have effective controls in
                    place because of inadequate oversight and guidance for transferring excess
                    defense articles. As a result of these deficiencies in controls over excess
                    defense articles, DoD transportation offices and DRMS increased the risk
                    of providing foreign governments unauthorized property that could be
                    used to threaten our national security.


Excess Defense Articles Provided to Foreign Governments
           From October 2001 through March 2006, DoD reported providing excess defense
           articles with an acquisition value of $2 billion to 57 foreign governments. The
           Army and the Defense Logistics Agency are the two DoD Components that
           provided the largest quantities of excess defense articles to foreign governments
           from October 2001 through March 2006. The Army and the Defense Logistics
           Agency provided approximately 99 percent (2,728,384 of 2,752,057) of the
           excess defense articles with an acquisition value of $875 million to 37 foreign
           governments during that period. Within the Army, we reviewed controls at the
           U.S. Army Security Assistance Command and did not detect control weaknesses.
           However, we did find weaknesses and focused our review on controls at the
           Defense Logistics Agency’s Defense Reutilization and Marketing Service, which
8
    DoD transportation offices refer to transportation offices located on military installations and managed by
    the Navy, Air Force, and DLA. DLA manages transportation offices at the Army sites, according to the
    Transportation Manager at Anniston Army Depot.

                                                        5
            provided excess defense articles with an acquisition value of more than
            $296 million to 19 foreign governments from October 2001 through March 2006.


Audit Universe and Sample Selection
            We received a database from DRMS that contained 7,3739 line items of excess
            defense articles (321,196 excess defense articles) requiring demilitarization that
            were sent to foreign governments from October 2001 through March 2006. We
            statistically selected an initial sample of 45 line items of excess defense articles to
            assess the adequacy of controls in accounting for transfers of excess defense
            articles to foreign governments. We defined accounting for transfers as
            managing,10 authorizing, and coding excess defense articles. Based on the results
            of the 45 line items, we increased our sample by 130 line items, for a total sample
            of 175 of 7,373 line items. The 175 line items represented 5,582 of 321,196
            excess defense articles transferred to foreign governments from October 2001
            through March 2006. (See Appendix B for our statistical methodology and
            Appendix C for the quantities and the value of excess defense articles provided to
            foreign governments.)


Accounting for Transferred Articles
            DoD transportation offices and DRMS did not always fully account for 7,373 line
            items of excess defense articles with an acquisition value of more than
            $296 million that were provided to 19 foreign governments from October 2001
            through March 2006. Based on our statistical sample of 175 line items, we
            estimated how many of the 7,373 line items were not properly managed,
            authorized, or coded.

            Controls Over Managing Excess Defense Articles. We estimate that DoD
            transportation offices and DRMS did not adequately manage transfers of up to
            7,259 of the 7,373 line items of excess defense articles to foreign governments.
            Controls over managing 165 of the 175 line items in our sample were deficient in
            the following categories:

                        tracking items shipped (48 line items shipped could not be tracked),

                        safeguarding small arms by requiring both drivers to sign for small
                         arms (transportation documents for 6 line items of small arms lacked
                         both drivers’ signatures),

                        retaining copies of shipping documents (documents were not on file
                         for 116 line items),
9
    The 7,373 line items represent excess defense articles that foreign governments must demilitarize—that
    is, render useless for military purposes—when they no longer need the items.
10
      We defined managing as consistently recording, safeguarding, accounting for, and reconciling excess
     defense articles.

                                                       6
                    accounting for excess defense articles turned in by the Military
                     Services (turn-in documents for 12 line items were missing), and

                    reconciling the number of small arms11 turned in and recorded in the
                     DoD small arms system with the number of small arms recorded in the
                     DRMS system (the numbers of small arms recorded in the two systems
                     did not match for 1 line item).

                Tracking Items Shipped. We determined that DoD transportation offices
        could not track 48 line items in our sample of excess defense articles shipped for
        the DRMOs to foreign governments. The transportation offices use a
        transportation control number (TCN) to track shipments. Defense Transportation
        Regulation (DTR) 4500.9-R, “Defense Transportation Regulation,”
        November 2004, developed by the U.S. Transportation Command, requires DoD
        transportation offices to ensure a TCN is assigned to all shipment units.
        DTR 4500.9-R also states that the TCN should be unique to each shipment. The
        TCN serves as a control to ensure shipments of line items requested are received
        by the requesting foreign governments. Specifically, DTR 4500.9-R states that
        the TCN is assigned to control every shipment unit throughout the transportation
        cycle of the Defense transportation system.

                The regulation later defines a shipment unit as one of the following: (1) a
        single line item of supply; (2) two or more compatible line items having the same
        consignee/destination, commodity, category, and transportation account code; or
        (3) two or more compatible shipment units aggregated into a consolidated
        shipment unit.

                The DoD transportation offices followed the guidance that defined a
        shipment unit. For example, a transportation office in Texarkana, Texas,
        controlled the shipment of a single line item of motor parts to a foreign
        government by recording a unique TCN—TISK4N6053M093—on a shipping
        document. In this case, we could track the line item shipped to the foreign
        government because the line item of motor parts requested by the foreign
        government was traceable to the TCN on the shipping document.

                For a shipment of more than one line item, transportation officials
        following the guidance sometimes combined or consolidated similar or
        compatible line items and recorded one TCN (referred to as a “lead TCN”) on the
        shipping document. Sometimes the combined or consolidated line items
        represented more than one request for excess defense articles by a government.
        For example, we found that a DoD transportation office in Anniston, Alabama,
        had recorded TCN TSKA9N3121F008 on a shipping document for machine guns
        sent to Senegal. At the request of DRMO, the transportation officials
        consolidated this request for machine guns with another request Senegal made for
        machine guns. The transportation office assigned a different TCN—
        TSKA9N3121F019—to the second request for machine guns. We searched but
        were unable to find TCN TSKA9N3121F019 on any shipping document.

11
  Small arms include handguns, shoulder-fired weapons, light automatic weapons, recoilless rifles,
 mortars, rocket launchers, grenade launchers, and other weapons that are portable or can be fired without
 special mounts or firing devices, have potential use in civil disturbances, and are vulnerable to theft.

                                                    7
                   When asked, the transportation officials told us that the TCN for the
            second request for machine guns—TSKA9N3121F019—was not recorded on any
            shipping document. Those officials explained to us that the TCN for the second
            request, although not recorded, was represented on the shipping document by the
            TCN on the initial request—TSKA9N3121F008, referred to as a “lead TCN.”
            This process appears to negate the purpose of a TCN: to provide a method for
            tracking the shipment of line items by assigning a unique number to each request
            made by a foreign government.

                   For 59 of the 175 line items in our sample, we reviewed 47 shipping
            documents,12 mainly bills of lading13 and Federal Express documents. For the
            remaining 116 line items, DoD transportation offices and DRMOs had no
            documents for us to review. Our review of the available shipping documents
            showed that:

                         for 11 of 59 line items, DoD transportation offices could track
                          shipments because the TCN recorded on the shipping document
                          matched a single line item, but

                         for 48 of 59 line items, DoD transportation offices could not track
                          shipments because the TCN recorded on the shipping document was
                          for a consolidated or containerized shipment of two or more line items.

                   The U.S. Transportation Command, which developed the DTR governing
            TCNs, needs to revise the regulation to require that, for each shipment to a
            foreign government, DoD transportation offices identify, track, and control all
            TCNs linked to the lead TCN. The lack of controls over the tracking of
            shipments to foreign governments increases the risk of articles being diverted
            from the intended government.

                    Safeguarding Small Arms. DoD transportation offices did not
            adequately safeguard the shipment of six line items of small arms in our sample.
            DLA uses a DD Form 1907, “Signature and Tally Record,” to track or control the
            movement of small arms. According to DTR 4500.9-R, drivers are required to
            sign a signature and tally record when they accept custody of small arms. The
            regulation also requires two drivers to protect and transport small arms. In
            discussions with transportation officials, we were told that small arms shipments
            required the signatures of two drivers on a signature and tally form.

                    To determine whether DoD transportation offices were requiring two
            drivers to sign the signature and tally records when transporting small arms, we
            reviewed controls at the DLA transportation office in Anniston, Alabama, and at
            the Navy transportation office in Crane, Indiana. There were 31 line items of
            small arms in our sample of 175. Of these, the DLA transportation office at
            Anniston shipped 20, and the Navy transportation office at Crane shipped 11. We

12
      A shipping document can cover more than one line item. Therefore, there is no direct correlation
     between the number of shipping documents and the number of line items.
13
      A bill of lading is an official receipt, signed by the shipment owner or agent, specifying the goods to be
     shipped and stating the terms and conditions under which they will be transported.

                                                         8
            received signature and tally records for 2214 of the 31 line items of small arms to
            assess compliance with DTR 4500.9-R and DRMS requirements. (The
            transportation offices in Anniston and Crane did not provide us signature and tally
            records for the remaining 9 of the 31 line items of small arms.) We determined
            that 615 of the 22 line items of small arms showed the signature of only 1 driver
            transporting more than 500 M-16 rifles.

                   DoD transportation offices can reduce the risks of diversion of small arms
            by enforcing the requirement that two drivers sign the signature and tally records.

                    Retaining Copies of Shipping Documents. The DoD transportation
            offices and DRMS did not retain copies of the shipping documents for 116 of the
            175 line items of excess defense articles in our sample. According to DoD
            Regulation 5105.38-M, “Security Assistance Management Manual,”
            October 3, 2003, case managers must “ensure accessibility to bills of lading” for
            10 years after completing a shipment of excess defense articles and closing the
            case. Also, DLA Records Schedule, section 940.05, “Foreign Military Sales
            Transportation Case Files,” April 2004, stipulates that case files containing
            records including bills of lading should be maintained for 30 years.

                   We determined that the DoD transportation offices and DRMS case
            managers did not retain bills of lading for 116 of the line items (2,862 of the
            5,582 excess defense articles). DoD transportation offices and DRMS case
            managers could better account for excess defense articles shipped to foreign
            governments by periodically verifying that bills of lading are retained for at least
            10 years.

                    Accounting for Excess Defense Articles Turned in by the Military
            Services. For 12 of 175 line items in our sample, DRMOs did not retain
            documents showing the number of excess defense articles turned in by the
            Military Services. The DLA Records Schedule, section 630.55, “Accounts
            Maintenance,” April 2004, and DRMS Instruction 4160.14, “Defense
            Reutilization Management System Operating Instructions for Disposition
            Management,” December 2006, state that turn-in documents, as well as
            documents used to research, maintain, and correct accounts, can be destroyed
            after 3 years. However, the DLA Records Schedule, section 610.10, “Item Case
            Files,” April 2004, states that “item release/receipt documents . . . used to account
            for property items until reutilization or disposal” can be destroyed after 2 years.

                    When asked which rule they followed, three DRMO managers told us that
            they retained turn-in documents for 3 years. One DRMO manager explained that
            she retained turn-in documents for 3 years for nondemilitarization articles and for
            6 years for demilitarization articles. However, we determined that the DRMOs
            did not retain turn-in documents for 12 line items of excess defense articles in our
            sample.

14
     The 22 line items include 15 line items from Anniston and 7 line items from Crane.
15
      The six line items with one signature on the signature and tally records were from Anniston. (The other
     nine line items from Anniston and the seven line items from Crane had the required two signatures on the
     signature and tally records.)

                                                       9
        DRMS should review its policies for retaining documents and specify a
single time frame for retaining all turn-in documents to avoid confusion among its
personnel. Document retention is necessary to facilitate research, maintenance,
and correction of actions taken related to articles turned in by the Military
Services.

        Reconciling the Number of Small Arms Turned in With the Number
of Small Arms Recorded. We determined that DRMO could not reconcile the
number of small arms recorded in the small arms system with the number of small
arms turned in to DRMO for 1 of 175 line items in our sample. Specifically, the
DoD demilitarization center at Crane, Indiana, could not reconcile the number of
small arms recorded in the Small Arms Serialization Program system with the
number of small arms turned in and recorded in the Defense Reutilization and
Marketing Automated Information System. DRMS Instruction 4160.14 requires
that the number of small arms recorded in the Defense Reutilization and
Marketing Automated Information System be reconciled with the number of small
arms recorded in the Small Arms Serialization Program system. DRMO is
responsible for accounting for the weapons in the DRMO inventory using the
Defense Reutilization and Marketing Automated Information System. Also,
DRMO is responsible for recording receipts, shipments, and demilitarization of
small arms in the Small Arms Serialization Program system.

        We compared the number of small arms turned in to DRMO and reported
in the Defense Reutilization and Marketing Automated Information System with
the number of small arms reported in the Small Arms Serialization Program
system. We determined that the demilitarization center in Crane, Indiana, could
not reconcile small arms entries for 1 of 175 line items in our sample. For that
line item, the Defense Reutilization and Marketing Automated Information
System showed 48 M16A1 rifles, whereas the Small Arms Serialization Program
system showed 12 M16A1 rifles were turned in by the Army on May 1, 2001.
The DRMOs need to constantly compare the number of small arms in the two
systems to detect and correct discrepancies early and to reduce the potential for
loss of weapons. For the discrepancy we identified between the two systems, we
recommend that DRMS determine whether small arms are missing.

Controls Over Authorizing Excess Defense Articles for Shipment. For 4 of
175 line items in our sample, controls over authorizing excess defense articles for
shipment were inadequate. The controls did not always ensure that foreign
governments received only authorized excess defense articles. Based on the
sample results, we estimate that DRMS inappropriately provided as many as
291 of 7,373 line items of excess defense articles to foreign governments from
October 2001 through March 2006. According to DSCA officials, DRMS is
limited to offering and transferring only those articles specified in the LOA that
DSCA approved.

We determined that a DRMS case manager authorized the shipment of weapon
parts to the Dominican Republic for four line items in our sample, although those
parts were not approved in the LOA. The LOA represents an offer by the U.S.
Government to sell items recorded in the LOA. The case manager informed us
that the Dominican Republic stated that the weapon parts were to be used as


                                    10
            training aids, which are authorized on the LOA. However, the weapon parts are
            not considered as training aids according to the Federal Supply Classification.16

            DRMS should establish controls to prevent case managers from authorizing
            shipments of excess defense articles not in the LOA that DSCA approved.

            Controls Over Coding Excess Defense Articles. Of the 175 line items in our
            sample, 12 had demilitarization code changes between when the Military Services
            turned in the items and when DRMS provided the items to foreign governments.
            Yet, DRMS did not have adequate controls to ensure that foreign governments
            always received notification of the changes. Based on the inadequacies found in
            this sample, we estimate that as many as 960 of 7,373 line items of excess defense
            articles had demilitarization coding changes that were not communicated to
            foreign governments receiving the excess defense articles.

            For 12 line items in our sample, the demilitarization code on the turn-in
            documents that the Military Services submitted to DRMS changed, but foreign
            governments that received the items were not notified of the change. For
            example, on a turn-in document, the Army coded a steering control differential17
            as not requiring demilitarization—Code B. When DRMS provided this item to
            the foreign government on May 27, 2003, the code remained unchanged. The
            demilitarization code for the steering control differential changed to total
            destruction—Code D—on January 3, 2005. This change in code requires a more
            stringent disposal process. DRMS case managers told us that they did not inform
            the foreign government when the code changed.

            DRMS needs to develop a system to notify foreign governments when the
            demilitarization codes for excess defense articles received by those governments
            change (especially if the new code requires a more stringent disposal process).
            Without notification of code changes, the foreign government may not properly
            remove the military capability from the articles when they are no longer needed,
            and unfriendly foreign persons or governments could acquire the articles and use
            them against the United States. DRMS can reduce the risk of excess articles
            falling into the wrong hands by notifying foreign governments of code changes.
            Also, DRMS will have greater assurance that friendly foreign governments have
            appropriate instructions to properly dispose of excess defense articles.


Providing Guidance and Oversight for Transfer of Excess
  Defense Articles
            DoD controls over excess defense articles were ineffective because of inadequate
            guidance and oversight. Specifically, DoD transportation offices did not provide
16
     The Federal Supply Classification and its indexes have been developed and adopted by the Office of the
     Secretary of Defense for use in classifying items of supply, from ammunitions to yarn and thread.
     Training aids (classification code 6910) include items such as training films and maps and vehicle and
     aircraft instrument training aids, but exclude weapons.
17
      A steering control differential is used in an armored, tracked vehicle such as a personnel carrier to help
     control and steer the vehicle.

                                                         11
adequate guidance and oversight for documenting shipments of excess defense
articles. In addition, DRMS did not provide adequate guidance and oversight for
documenting turn-ins, reconciling small arms, or shipping and coding those
articles.

Guidance and Oversight for Shipments. DoD transportation offices could not
always trace the line items of excess defense articles shipped to the line items of
articles that the foreign governments requested because of inadequate
transportation guidance. DTR 4500.9-R states that the TCN is assigned to control
a shipment throughout the transportation cycle of the Defense transportation
system. However, the application of one TCN (lead TCN) to a shipment of two
or more line items (consolidated and containerized) was not adequate for
matching each line item shipped with a line item that the foreign government
requested. DoD transportation offices need to improve transportation guidance to
identify, track, and control all TCNs for line items linked to the lead TCN.

In addition to inadequately tracking shipments of excess defense articles, the DoD
transportation offices did not adequately oversee the use of signature and tally
records. DTR 4500.9-R requires the use of signature and tally records to secure
small arms shipments. Better oversight of this process is needed to improve
security on shipments of small arms.

Besides establishing better oversight for shipments of small arms, DoD
transportation offices and DRMS managers need to improve monitoring of
retention of bills of lading. The Security Assistance Management Manual and
DLA Records Schedule, section 940.05, require DoD transportation offices and
DRMS managers to retain bills of lading for 10 years and 30 years, respectively,
after all actions related to excess defense articles are completed and the case is
closed. The DoD transportation offices and DRMS managers need to periodically
verify that their personnel retain bills of lading for at least 10 years.

Guidance on Retaining Turn-in Documents. DRMS gave inconsistent
guidance on retaining turn-in documents. The DLA Records Schedule,
section 610.10, states that item release or receipt documents can be destroyed
after 2 years. However, the DLA Records Schedule, section 630.55, states that
turn-in documents can be destroyed after 3 years. The majority of DRMO
managers that we interviewed stated they kept turn-in documents for 3 years.
DRMS should modify its guidance to help avoid confusion on the time frame for
retaining turn-in documents.

Guidance for Reconciling Small Arms. DRMS did not enforce its guidance for
reconciling the number of small arms turned in to the DRMOs with the number of
small arms recorded in the small arms system. DRMS Instruction 4160.14
requires continual reconciliation of the number of small arms in the Defense
Reutilization and Marketing Automated Information System with the number of
small arms in the Small Arms Serialization Program system. DRMOs did not
always reconcile the number of the small arms in the Defense Reutilization and
Marketing Automated Information System with the number of small arms in the
Small Arms Serialization Program system. Therefore, DRMS needs to
periodically verify that reconciliation is occurring. It should also establish a
policy requiring DRMOs to take action to reconcile the number of small arms

                                    12
     specified on each turn-in document with both the number actually turned in and
     the number that the Military Services recorded in the Small Arms Serialization
     Program system. This action should be taken before DRMS accepts small arms
     from the Military Services and enters the number of small arms in the Defense
     Reutilization and Marketing Automated Information System. Further, DRMS
     needs to determine whether the small arms discrepancy we identified between the
     Small Arms Serialization Program system and the Defense Reutilization and
     Marketing Automated Information System indicates that small arms are missing.

     Guidance for Authorizing Excess Defense Articles. DRMS management did
     not always ensure that case managers provided foreign governments only excess
     defense articles authorized by the LOA. DoD 5105.38-M, “Security Assistance
     Management Manual,” October 3, 2003, states that the scope of the LOA “is
     limited to described item and/or service categories and the purchaser-furnished
     case and/or line dollar value.”

     However, a case manager provided weapon parts to the Dominican Republic that
     were not included in the category of property authorized on the LOA. Therefore,
     DRMS needs to establish and document a process for reviewing case managers’
     decisions on shipments of excess defense articles to foreign governments.

     Guidance for Coding Changes to Excess Defense Articles. DRMS
     management did not have adequate guidance in place for notifying a foreign
     government when a demilitarization code changed for excess defense articles
     provided to the foreign government. For the articles we reviewed, code changes
     occurred generally after the excess defense articles had been shipped to the
     foreign government. DRMS could keep a foreign government informed of
     demilitarization code changes to excess defense articles by developing a
     notification procedure.


Risk of Providing Unauthorized Property to Foreign
  Governments
     As a result of inadequate controls over managing, authorizing, and coding excess
     defense articles, DoD transportation offices and DRMS increased the risk of
     providing foreign governments unauthorized property that could be used to
     threaten national security.

     This increase in risk was a result of:

           inadequate controls over documenting the transportation and turn-in of
            excess defense articles and the reconciliation of small arms;

           lack of transportation documents and TCNs to track shipments;

           lack of drivers’ signatures on the signature and tally records to secure
            small arms shipments;


                                              13
          unauthorized property (such as weapon parts not authorized on the LOA)
           provided to a foreign government; and

          lack of communication of demilitarization code changes to foreign
           governments that received the excess defense articles.

    In April 2001, DRMS acknowledged this risk when it reported on its Web site
    that “inappropriate management of this property [excess DoD property turned in
    for disposal] could potentially threaten our national security or damage U.S.
    foreign policy.”


Management Comments on Report Content and Audit
 Response
    Management Comments. The Chief of Staff [who is also the Director of Policy]
    for the Deputy Assistant Secretary of the Navy for Acquisitions and Logistics
    Management, responding for the Commander of the Naval Supply Systems
    Command, stated that the Department of the Navy concurs with the finding. The
    Director of Program Analysis and Financial Management, responding for the
    Commander of the U.S. Transportation Command, stated that the U.S.
    Transportation Command had no formal changes to make to the report.

    The Executive Director for Materiel Policy, Process and Assessment, responding
    for the Director of the Defense Logistics Agency, provided additional comments
    on the report that do not relate to the finding or recommendations. The Executive
    Director stated that the Defense Logistics Agency is not the DoD program
    manager for all transfers, as we reported in the Defense Logistics Agency
    paragraph on page 2 of the draft report. Additionally, she suggested that
    references to demilitarization be removed from the Objectives paragraph because
    the report does not cover examination of demilitarization. Further, the Executive
    Director suggested that we rephrase footnote 9 to prevent it from being
    misleading or misconstrued.

    Audit Response. We revised the first sentence of the Defense Logistics Agency
    paragraph by deleting the reference to the Defense Logistics Agency as the DoD
    program manager for all transfers and adding information from the Defense
    Logistics Agency’s Foreign Military Sales Handbook to describe the Defense
    Logistics Agency’s role in shipping materiel to Foreign Military Sales customers.
    We considered the Executive Director’s suggestion to remove demilitarization
    from the Objectives paragraph. However, we decided to keep demilitarization in
    the Objectives paragraph because we include in the report our review of
    demilitarization codes applied to excess defense articles and the need to notify
    foreign governments of any changes to the demilitarization codes for disposing of
    excess defense articles. We clarified footnote 9, the definition of DoD
    transportation offices, by stating that transportation offices are located on military
    installations and managed by Navy, Air Force, and the Defense Logistics Agency.



                                         14
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, U.S. Transportation Command
    revise the DTR 4500.9-R, “Defense Transportation Regulation,” November
    2004, to require that, for each shipment to a foreign government,
    transportation offices identify, track, and control all transportation control
    numbers linked to the lead transportation control number.

    Management Comments. The Director of Program Analysis and Financial
    Management, responding for the Commander of the U.S. Transportation
    Command, did not concur or nonconcur but provided us the language that the
    U.S. Transportation Command plans to add to the Defense Transportation
    Regulation, part II, chapter 203, to require transportation offices to identify, track,
    and control all transportation control numbers.

    Audit Response. The Director of Program Analysis and Financial Management’s
    comments were responsive. Follow-up showed that the U.S. Transportation
    Command updated the Defense Transportation Regulation, part II, chapter 203 in
    July 2008, requiring transportation offices to identify, track, and control all
    transportation control numbers linked to the lead transportation control number.

    2. We recommend that the Deputy Chief of Staff for Logistics, Installations
    & Mission Support, Department of the Air Force; the Commander, Naval
    Supply Systems Command; and the Director, Defense Logistics Agency:

            a. Issue policy requiring periodic reviews of signature and tally sheets
    to verify that transportation offices are obtaining two drivers’ signatures
    before transporting small arms.

    Air Force Deputy Chief of Staff for Logistics, Installations & Mission
    Support Comments. The Assistant Deputy Chief of Staff for Logistics,
    Installations & Mission Support, responding for the Deputy Chief of Staff for
    Logistics, Installations & Mission Support, concurred, stating that the U.S. Air
    Force has issued a policy message directing certification of dual driver signatures
    on all signature and tally records for small arms. This policy message will be
    incorporated in the next revision of Air Force Instruction 24-203, “Preparation
    and Movement of Air Force Cargo,” scheduled for July 2009. Additionally, the
    Assistant Deputy Chief of Staff reported that the Air Force further identified
    signature and tally records as a compliance item in Air Force Instruction 90-201,
    “Inspector General Activities.”

    Audit Response. The Assistant Deputy Chief of Staff’s comments were
    responsive. The actions taken and revisions planned address the
    recommendation.

    Naval Supply Systems Command Comments. The Chief of Staff [who is also
    the Director of Policy] for the Deputy Assistant Secretary of the Navy for
    Acquisition and Logistics Management, responding for the Commander, Naval
    Supply Systems Command, concurred. The Chief of Staff stated that the Navy
                                          15
would develop a policy message to all shippers to reiterate the requirement to
obtain all appropriate drivers’ signatures on the signature and tally form, and
would transmit this policy message by April 30, 2008. The Chief of Staff
reported that this requirement shall be enforced through periodic official
inspections of Navy transportation offices by the Inspector General, Safety and
Security, and others.

Audit Response. The Chief of Staff’s comments were responsive. The actions
taken and planned address the recommendation. Follow-up showed that the Navy
issued a policy message on April 8, 2008, that required the transportation offices
to obtain drivers’ signatures on signature and tally forms and to update inspection
and evaluation procedures to include monitoring compliance with this
requirement.

Defense Logistics Agency Comments. The Executive Director for Materiel
Policy, Process and Assessment, responding for the Director of the Defense
Logistics Agency, concurred, stating that the Defense Logistics Agency would
develop a policy statement for its Defense Distribution Depots. She said the
policy statement would require a periodic review of shipment documentation to
verify that two driver signatures appear on the signature and tally record when
shipments of small arms require two (dual) drivers to transport the materiel. The
Defense Logistics Agency expected to complete the policy statement by the
fourth quarter of FY 2008.

Audit Response. The Executive Director for Materiel Policy, Process and
Assessment’s comments were responsive. Follow-up showed that the Defense
Logistics Agency issued supplemental policy for its Defense Distribution Center
on April 22, 2008, based on the draft transportation regulation to be issued
February 2009, requiring periodic reviews of the signature and tally record for
signatures of both drivers transporting shipments of small arms.

        b. Issue policy requiring periodic reviews of bills of lading and other
shipping documents to verify that transportation offices and case managers
retain the documents for at least 10 years.

Air Force Deputy Chief of Staff for Logistics, Installations & Mission
Support Comments. The Assistant Deputy Chief of Staff for Logistics,
Installations & Mission Support, responding for the Deputy Chief of Staff for
Logistics, Installations & Mission Support, concurred, stating that the U.S. Air
Force has issued a policy message directing retention of all bills of lading for
10 years. The Air Force will incorporate this policy message in the next revision
of Air Force Instruction 24-203, scheduled for July 2009. Additionally, the
Assistant Deputy Chief of Staff reported that the Air Force further identified bill
of lading records retention as a compliance item in Air Force Instruction 90-201,
“Inspector General Activities.”

Audit Response. The Assistant Deputy Chief of Staff’s comments were
responsive. The actions taken and revisions planned address the
recommendation.



                                     16
Naval Supply Systems Command Comments. The Chief of Staff [who is also
the Director of Policy] for the Deputy Assistant Secretary of the Navy for
Acquisition and Logistics Management, responding for the Commander, Naval
Supply Systems Command, concurred. The Chief of Staff stated that the Navy
would develop a policy message to all shippers to reiterate the 10-year document
retention requirement. The Navy planned to issue this policy guidance by
April 30, 2008. The Chief of Staff reported that this requirement would be
enforced through periodic official inspections of Navy transportation offices by
the Inspector General, Safety and Security, and others.

Audit Response. The Chief of Staff’s comments were responsive. Follow-up
showed that the Navy issued a policy message on April 8, 2008, that required the
transportation offices to retain all shipping documents for the required 10-year
period and to update inspection and evaluation procedures to include monitoring
compliance with this requirement.

Defense Logistics Agency Comments. The Executive Director for Materiel
Policy, Process and Assessment, responding for the Director of the Defense
Logistics Agency, concurred, noting that the Defense Logistics Agency Records
Management policy states that Foreign Military Sales transportation case files
must be retained in the current file area for 2 years, retired to the Federal Records
Center for 28 years, and destroyed after 30 years. The Executive Director
reported that the Defense Logistics Agency reiterated the guidance to its depots
on September 6, 2006, emphasizing to Defense Logistics Agency shippers that it
is their responsibility to follow Foreign Military Sales guidance on retaining
transportation paperwork.

Audit Response. The Executive Director’s comments were not responsive.
Although the Executive Director reported that the Defense Logistics Agency
reiterated guidance for retaining transportation paperwork to its depots on
September 6, 2006, we found that transportation guidance was not being
followed. Therefore, we still recommend that the Defense Logistics Agency issue
policy requiring periodic reviews of bills of lading and other shipping documents
to verify that transportation offices and case managers retain the documents for at
least 10 years. Accordingly, we request that the Executive Director reconsider
her position on the recommendation and provide additional comments in response
to the final report.

3. We recommend that the Director, Defense Reutilization and Marketing
Service:

       a. Issue written instructions clarifying which guidance the Defense
Reutilization and Marketing Offices and demilitarization centers should
follow for retaining turn-in documents for excess defense articles.

Management Comments. The Executive Director for Materiel Policy, Process
and Assessment, responding for the Director of the Defense Logistics Agency,
concurred, stating that the Defense Logistics Agency was in the process of
clarifying the guidance the Defense Reutilization and Marketing Offices and
demilitarization centers should follow for retaining turn-in documents for excess
defense articles.

                                     17
Audit Response. The Executive Director’s comments were responsive. Follow-
up showed that the Defense Logistics Agency added clarifying guidance to the
Defense Reutilization and Marketing Service’s Operating Instructions for
Disposition Management on May 27, 2008, requiring release/receipt documents
to be kept for 3 years.

       b. Issue policy directing Defense Reutilization and Marketing Offices
and demilitarization centers to reconcile the number of small arms recorded
on each turn-in document with both the number actually turned in and the
number recorded by the Military Services in the Small Arms Serialization
Program system before accepting the small arms from the Military Services
and entering the number of small arms in the Defense Reutilization and
Marketing Automated Information System.

Management Comments. The Executive Director for Materiel Policy, Process
and Assessment, responding for the Director of the Defense Logistics Agency,
concurred, stating that the Defense Logistics Agency resolved the problem after it
was first identified in 2006. The Defense Reutilization and Marketing Service
implemented a system change that automatically updates the Defense
Reutilization and Marketing Automated Information System when a transaction is
recorded in the Small Arms Serialization Program.

Audit Response. The Executive Director’s comments were not responsive. The
Executive Director’s comments do not address the recommendation to compare
the number of small arms in the systems with the small arms actually turned in.
Therefore, we still recommend that the Defense Logistics Agency issue policy
requiring reconciliation of the number of small arms in the Small Arms
Serialization Program system and in the Defense Reutilization and Marketing
Automated Information System with the number of arms turned in to the
demilitarization centers. Accordingly, we request that the Executive Director
reconsider her position on the recommendation and provide additional comments
in response to the final report.

       c. Determine whether the discrepancy identified at Crane, Indiana,
between the number of small arms recorded in the Small Arms Serialization
Program system and the number recorded in the Defense Reutilization and
Marketing Automated Information System indicates that small arms are
missing.

Management Comments. The Executive Director for Materiel Policy, Process
and Assessment, responding for the Director of the Defense Logistics Agency,
neither concurred nor nonconcurred but stated that all of the weapons identified at
Crane, Indiana, were accounted for under two disposal turn-in documents.
Following receipt of the weapons, all 48 weapons were accounted for and
recorded in the Small Arms Serialization Program system under disposal turn-in
document numbers W59TYJ10710005A and W59TYJ10670004A, which list
12 serial numbers and 36 serial numbers, respectively.

Audit Response. The Executive Director’s comments were not responsive.
Disposal turn-in document number W59TYJ10670004A lists 52 items, not
36 items, recorded in the Small Arms Serialization Program system and the

                                    18
Defense Reutilization and Marketing Automated Information System. Therefore,
we still recommend that the Defense Logistics Agency determine whether small
arms are missing, given the difference in the numbers of small arms reported in
the two systems for turn-in document number W59TYJ10710005A. Accordingly,
we request that the Executive Director reconsider her position on the
recommendation and provide additional comments in response to the final report.

        d. Establish and document a process for reviewing case managers’
decisions to authorize shipments of excess defense articles so that articles not
specified on a Letter of Offer and Acceptance are not authorized for
shipment to a foreign government.

Management Comments. The Executive Director for Materiel Policy, Process
and Assessment, responding for the Director of the Defense Logistics Agency,
concurred, stating that the Foreign Military Sales supervisor is now conducting
quarterly reviews of case files to ensure that only approved items are authorized
for shipment. In addition, the Executive Director reported that case managers will
authorize only shipments of items specifically allowed on a Letter of Offer and
Acceptance. Further, if additional items are requested after the Letter of Offer
and Acceptance is signed, the Foreign Military Sales case manager will forward
the new request to the Foreign Military Sales supervisor to forward to the Defense
Security Cooperation Agency for final determination.

Audit Response. The Executive Director’s comments were not responsive.
Although the Executive Director stated that the Foreign Military Sales supervisor
is now conducting quarterly reviews of case files and that case managers will
authorize only shipments allowed on a Letter of Offer and Acceptance, she did
not identify the process established nor the document that specified the process
for reviewing case managers’ decisions to authorize shipments of excess defense
articles. Accordingly, we request that the Executive Director reconsider her
position on the recommendation and provide additional comments in response to
the final report.

      e. Establish and document a process to notify foreign governments
when the demilitarization codes for excess defense articles provided to them
change.

Management Comments. The Executive Director for Materiel Policy, Process
and Assessment, responding for the Director of the Defense Logistics Agency,
concurred with the intent but not the recommendation. The Executive Director
stated that the Security Assistance Management Manual, 5105.38-M, sections
C2.5.2 and C8.6.2, instructs the Security Assistance Officer to provide the excess
defense article recipient with proper requirements for item disposal, including
current demilitarization code, demilitarization method, and any other codes that
changed after the materiel was first transferred to that country—for example,
hazardous designation or changes in Commerce Control List Items.

Audit Response. The Executive Director’s comments were not responsive. We
reviewed in sections C2.5.2 and C8.6.2, and the instructions do not specify that
foreign governments be provided the current demilitarization code to use for item
disposal. We request that the Executive Director reconsider her position and

                                    19
provide comments on the final report indicating what actions will be taken to
notify foreign governments when demilitarization codes change so that the
foreign governments use the correct demilitarization code and method to dispose
of excess defense articles.




                                   20
Appendix A. Scope and Methodology
   We conducted this performance audit from March 1, 2006, through
   March 14, 2008, in accordance with generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We reviewed documents and data in systems supporting the processes for turning
   excess defense articles in to the DRMOs and transferring those articles to foreign
   governments from October 1, 2001, through March 31, 2006.

   We reviewed the Federal laws and regulations, including the Foreign Assistance
   Act and Arms Export Control Act. Also, we reviewed DoD directives,
   instructions, and manuals related to the transfer of excess defense articles to
   foreign governments. In addition, we assessed the management controls within
   the excess defense articles process.

   We interviewed personnel in the following organizations:

             Office of the Under Secretary of Defense for Acquisition, Technology,
              and Logistics;

             Defense Logistics Agency;

             Defense Reutilization and Marketing Service;

             Defense Logistics Information Service;

             Defense Security Cooperation Agency;

             Office of the Assistant Secretary of the Army for Acquisition,
              Logistics, and Technology;

             U.S. Army Security Assistance Command;

             Navy International Programs; and

             Air Force Logistics Readiness.

   Our contacts with personnel in these organizations included discussions on the
   excess defense articles process and systems, and the organizations’ roles and
   responsibilities.

   We assessed the controls over excess defense articles to determine whether
   unauthorized excess defense articles were transferred to foreign governments.
   Also, we assessed whether proper demilitarization coding was recorded for
   articles sent to foreign countries.
                                       21
From October 2001 through March 2006, DoD reported providing excess defense
articles with an acquisition value of $2 billion to 57 foreign governments. The
Army and DLA are the two DoD Components that provided the largest quantities
of excess defense articles to foreign governments from October 2001 through
March 2006. The Army and DLA provided approximately 99 percent (2,728,384
of 2,752,057) of excess defense articles to foreign governments during that
period.

Within the Army, we reviewed controls at the U.S. Army Security Assistance
Command and did not detect control weaknesses. However, we did find
weaknesses in controls at the DLA DRMS. Accordingly, we focused our review
on DRMS, which provided excess defense articles with an acquisition value of
more than $296 million to 19 foreign governments from October 2001 through
March 2006.

During the survey phase of the audit, we looked at controls that the U.S. Army
Security Assistance Command and DRMS had over excess defense articles. We
reviewed 16 of 69 line items of excess defense articles requiring demilitarization
that the U.S. Army Security Assistance Command managed from October 24,
2002, through April 20, 2006. We did not detect control weaknesses. We
reviewed 45 of the 7,373 line items of excess defense articles that DRMS
managed from October 1, 2001, through March 31, 2006. We did find
weaknesses in controls at DRMS.

During the audit phase of the review, we statistically selected an additional
130 line items from the remaining 7,328* line items of excess defense articles
requiring demilitarization that DRMS managed from October 1, 2001, through
March 31, 2006.

Limitation to Scope. We did not review all excess defense articles that DoD
Components provided to foreign governments for the following reasons:

     insufficient personnel resources and time, and

     difficulty of acquiring documents from Military Service locations to assess
      controls over excess defense articles provided to foreign governments.

We limited our audit work to reviewing controls over excess defense articles
requiring demilitarization that DRMS transferred to foreign governments. The
Military Services turned these excess defense articles in to DRMS field offices,
and DRMS transferred them to foreign governments.




*
The 7,328 line items represent 7,373 line items less the initial sample of 45 line items of excess
defense articles.


                                           22
      Use of Computer-Processed Data. We relied on computer-processed data from
      the:

         DoD Security Assistance Management System,

         Defense Reutilization and Marketing Automated Integrated System, and

         Small Arms Serialization Program system.

      We assessed and summarized detailed data on excess defense articles cases for
      excess defense articles provided to foreign governments. We did not find any
      material errors that would preclude our use of the computer-processed data to
      meet the audit objectives or that would change the conclusions in the report. We
      concluded that the system controls were adequate for our purposes in conducting
      this audit.

      Use of Technical Assistance. We received technical assistance from the DoD
      Office of Inspector General’s Quantitative Methods Division to obtain our sample
      and to estimate the extent of weaknesses in the excess defense articles process.
      See Appendix B for the detailed methodology used in selecting our sample and
      estimating the extent of the weaknesses based on results of the sample.


Prior Coverage
      During the last 5 years, GAO and the Department of Defense Inspector General
      (DoD IG) have issued four reports discussing controls over excess defense
      articles. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO-05-277, “DoD Excess Property: Management Control Breakdowns Result
      in Substantial Waste and Inefficiency,” May 13, 2005

      GAO-04-15NI, “DoD Excess Property: Risk Assessment Needed on Public Sales
      of Equipment That Could Be Used to Make Biological Agents,”
      November 19, 2003




                                         23
DoD IG
    D-2004-095, “Navy Controls Over Materiel Sent to Defense Reutilization and
    Marketing Offices,” June 24, 2004

    D-2003-101, “Logistics: Law Enforcement Support Office Excess Property
    Program,” June 13, 2003




                                      24
Appendix B. Statistical Methodology
           Objective. The sampling objective was to test controls and to estimate the rate
           and occurrence of errors found for the transfer of excess defense articles that
           require demilitarization.

           Population. The population of excess defense articles sent to foreign
           governments from October 1, 2001, through March 31, 2006, that requires
           demilitarization was 7,373 line items.

           Sample. Our sample consisted of two strata. The first stratum consisted of 45
           out of 7,373 line items selected during the survey phase of our audit. The second
           stratum consisted of 130 out of the remaining 7,328 line items that we selected
           during the audit phase of our audit. We randomly selected line items from the
           population of excess defense articles. We used the measures of “correct” or
           “incorrect” to indicate whether a selected item met the audit criteria and to help
           determine the errors associated with our estimates.

           Line Items With Deficiencies. On the basis of the audit results, we estimated the
           number and percentage of line items that had deficiencies in the following
           categories: (1) missing/unsupported documentation (categorized by
           transportation, turn-ins, and small arms documentation), (2) unauthorized excess
           defense articles provided to foreign governments, and (3) incorrect
           demilitarization codes (see the table). We were 95 percent confident that our
           estimates of the number and percentages of errors are not more than the upper
           bounds1 found in the table.
                                     Estimates of Line Item Inadequacies
                                                  Number                              Percent
                                            Point        Upper                  Point         Upper
            Type of Inadequacy            Estimate2      Bound                 Estimate      Bound
           Missing/unsupported
           documentation                     6,975             7,259             94.6              98.5
           Unauthorized articles
           provided to foreign
           governments                         115               291               1.6              3.9
           Incorrect
           demilitarization code               621               960               8.4             13.0
1
    GAO Report No. GAO/PEMD-10.1.11, “Quantitative Data Analysis: An Introduction,” May 1992,
    defines upper bound as the upper limit of the confidence interval, which is an estimate of a population
    parameter consisting of a range of values.
2
    GAO Report No. GAO/PEMD-10.1.11, “Quantitative Data Analysis: An Introduction,” May 1992,
    defines point estimate as “an estimate of a population parameter that is a single numerical value.”




                                                       25
Appendix C. Excess Defense Articles Provided to
            Foreign Governments

           Quantities and Cost of Excess Defense Articles That DRMS Provided to
             Foreign Governments From October 2001 Through March 2006

                 Type of Article1                    No. of
          (Based on the Federal Supply                Line         Quantity           Acquisition Cost
               Classification Code)                  Items
      Aircraft and Airframe Structural
      Components                                        19               78               $      28,976.60
      Aircraft Components and
      Accessories                                         6              39                      27,531.21
      Assemblies Interchangeable Between
      Weapons in Two or More Classes
                                                          5              35                     115,076.00
      Bearings                                            1              12                         118.92
      Camouflage and Deception
      Equipment                                         55            1,193                      740,357.65
      Clothing and Individual Equipment              2,655           49,256                   14,936,328.11
      Communication Equipment                          476            9,471                   75,159,931.03
      Containers, Packaging, and
      Packaging Supplies                                  3              20                        4,098.00
      Drugs and Biologicals                               1             193                          856.92
      Electrical and Electronic Equipment
      Components                                       627           16,998                    6,681,267.22
      Electrical Wire and Power
      Distribution Equipment                             5               55                      273,011.95
      Engine Accessories                                17              315                      601,004.16
      Engines, Turbines, and Components                 66              259                    6,168,925.42
      Fire Control Transmitting and
      Receiving Equipment, Except
      Airborne                                            2               3                      40,204.00
      Fire Fighting, Rescue, and Safety
      Equipment                                         24            1,439                     325,614.42
      Guns, 75 millimeter through                       20              365                     259,591.56
      125 millimeter
      Guns, over 150 millimeter through                   9              63                     415,190.79
      200 millimeter
      Guns, over 30 millimeter up to                    82            1,416                     458,720.02
      75 millimeter
      Guns, through 30 millimeter                    2,177         207,776                $51,101,138.62




1
    The gray shading in this column represents the class of articles included in the sample of 175 line items of
     excess defense articles.

                                                        26
   Quantities and Cost of Excess Defense Articles That DRMS Provided to
   Foreign Governments From October 2001 Through March 2006 (cont’d)

           Type of Article             No. of
    (Based on the Federal Supply        Line    Quantity   Acquisition Cost
        Classification Code)           Items
Hardware and Abrasives                   42       2,050       $      25,943.85
Instruments and Laboratory
Equipment                               210       5,210            1,913,186.86
Launchers, Guided Missile                14          25              111,174.34
Launchers, Rockets, and Pyrotechnic      51         192           11,184,799.63
Maintenance and Repair Shop              10         900              188,566.82
Equipment
Mechanical Power Transmission
Equipment                                25        191               37,444.09
Medical, Dental, and Veterinary
Equipment and Supplies                    2        110               40,406.30
Miscellaneous Fire Control
Equipment                                 1          6                648.00
Miscellaneous Weapons                     2          5                305.96
Motor Vehicles, Trailers, and Cycles    326        439        117,473,962.00
Optical Sighting and Ranging
Equipment                                43       1,152             404,989.83
Photographic Equipment                   10          21             185,795.41
Pipe, Tubing, Hose, and Fittings          2          27               5,517.09
Pumps and Compressors                     1           1              22,130.00
Training Aids and Devices                 3           4              56,154.00

Vehicular Equipment Components           381     21,877         7,107,013.93
   Total                               7,373    321,196      $296,095,980.71




                                          27
Appendix D. Excess Defense Articles Process
*The DoD transportation offices are involved in shipping the excess defense articles that the MILDEP and
DRMS track.


                   Foreign Governments
                  Request Excess Defense
                         Articles by
                 Responding to DoD
                   surveys inquiring about
                   needs for excess defense                                           Item not
                                                          Military Department
                   articles                                                           Available             Retain request
   Start                                                  (MILDEP) or DRMS
                 Submitting a list of                         responds to                                     on file
                   requirements or a Letter               foreign governments
                   of Request                                within 20 days
                 Visiting the DRMS Web
                   Page
                                                                          Item                                   1
                                                                          Available


     MILDEP submits proposed                                   MILDEP
      allocation plan to Excess        NO                    determines if              YES        MILDEP or DRMS submits
          Defense Articles                                     there are                            notification or approval
     Coordinating Committee to                               enough assets                           information to Defense
         obtain needed assets                                                                     Security Cooperation Agency



       Excess Defense Articles                                                                    Defense Security Cooperation
       Coordinating Committee                                                                           Agency assembles
                meets                                                                               transfer or Congressional
      to develop allocation plan                                                                       notification package



      Coordinate Coordinating                                                                         Package coordinated
                                                                    2
             Committee                                                                             with Office of Secretary of
       recommendation with                                                                          Defense, Department of
       Office of Secretary of                                                                      Commerce, Department of
      Defense, Joint Chiefs of                                                                                State
        Staff, Department of
          Commerce, and
        Department of State                              Defense Security
                                                        Cooperation Agency
                                                                                        NO                       Is
                                                             authorizes
                                                                                                            Notification
          Defense Security                              MILDEP or DRMS to
                                                                                                            Required?
         Cooperation Agency                             offer excess defense
                                              1                articles
          notifies MILDEP
     of approved allocation plan                                                                                                   YES


                                                           Recipient country
                                                         performs joint visual                                               30-Day
                                                                                                    2
                                                         inspection of articles                                            Congressional
                                                                                                                            Notification

                                                          MILDEP or DRMS
                                                         prepares and submits
                                                                 LOA
                                                                                            MILDEP or
                                                                                            DRMS track
                                                         MILDEP or DRMS                    excess defense
                                                                                                                             End
                                                           prepares excess                     articles
                                                         defense articles case               deliveries*


*The DoD transportation offices are involved in shipping the excess defense articles that the MILDEP and DRMS track


                                                                   28
Department of the Navy Comments




                    29
30
31
Department of the Air Force Comments




                     32
U.S. Transportation Command Comments




                    33
34
Defense Logistics Agency Comments




                     35
     Final Report
      Reference




     Revised




     Revised and
     renumbered
     as Footnote
     8




36
37
38
39
40
